           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  ADMINISTRATIVE COSTS CLAIMED
   BY THE MARYLAND DISABILITY
    DETERMINATION SERVICES


   February 2007   A-13-06-16029




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      February 5, 2007                                                              Refer To:

To:        Laurie Watkins
           Regional Commissioner
            Philadelphia

From:      Inspector General

Subject:   Administrative Costs Claimed by the Maryland Disability Determination Services
           (A-13-06-16029)


           OBJECTIVE

           The objectives of our audit were to (1) evaluate the Maryland Disability Determination
           Services' (MD-DDS) internal controls over the accounting and reporting of
           administrative costs, (2) determine whether costs claimed for Federal Fiscal Years
           (FFY) 2003 and 2004 were allowable and properly allocated and funds were properly
           drawn, and (3) assess limited areas of the general security controls environment.

           BACKGROUND
           Disability Determination Services (DDS) in each State or other responsible jurisdiction
           perform disability determinations under the Disability Insurance and Supplemental
           Security Income programs. Such determinations are performed in accordance with
                                                     1
           Federal law and underlying regulations. In carrying out its obligation, each DDS is
           responsible for determining claimants' disabilities and ensuring adequate evidence is
           available to support its determinations. 2

           The Social Security Administration (SSA) reimburses the DDS for 100 percent of
           allowable and allocable program expenditures up to the limit of its funding authority.
           The DDS obtains Federal funds through the U.S. Department of the Treasury's
           (Treasury) Automated Standard Application for Payments system. These funds are
           obtained in



           1
            42 United States Code (U.S.C.) § 421; 20 Code of Federal Regulations (C.F.R.) §§ 404.1601 et seq. and
           416.1001 et seq.
           2
               20 C.F.R. §§ 404.1613(a), 404.1614(b), 416.1013(a) and 416.1014(a).
Page 2 – Laurie Watkins

                                      3
accordance with Federal regulations and an intergovernmental agreement entered into
by Treasury and the State of Maryland under the Cash Management Improvement Act
                4
of 1990 (CMIA). CMIA provides the general rules and procedures for the efficient
transfer of Federal financial assistance between the Federal Government and the
States. This process is often referred to as the draw down of Federal funds.

MD-DDS is located in Timonium, Maryland, and is a component of the Maryland State
Department of Education (MSDE), Division of Rehabilitation Services (DORS). MSDE
and DORS provide administrative and accounting services for MD-DDS. MSDE also
draws down Federal funds to reimburse the State of Maryland for the expenses
incurred by MD-DDS. Treasury transfers funds to the State Treasurer. The State's
indirect costs for MD-DDS are determined based on rates negotiated and approved by
the U.S. Department of Education. See Appendix B for our scope and methodology.

The State Agency Report of Obligations for SSA Disability Programs (Form SSA-4513)
reports obligations for personnel service, medical, indirect, and all other nonpersonnel
costs. For these costs, MD-DDS reported program disbursements and unliquidated
obligations to SSA on Forms SSA 4513, as shown in Table 1.

        Table 1: MD-DDS Report of Disbursements and Unliquidated Obligations
                                FFYs 2003 and 2004

         Reporting Item           FFY 2003 as of                FFY 2004 as of
                                September 30, 2004            September 30, 2005
Disbursements
   Personnel                                $13,093,437                  $13,350,837
   Medical                                   $6,420,884                   $6,649,175
   Indirect Costs                            $2,428,102                   $2,252,851
   Other                                     $1,971,725                   $2,015,305
Total Disbursements                         $23,914,148                  $24,268,168
Unliquidated Obligations                             $0                           $0




3
    31 C.F.R. § 205.1 et seq.
4
    Public Law 101-453.
Page 3 – Laurie Watkins


RESULTS OF REVIEW
Generally, MD-DDS had effective internal controls over the accounting and reporting of
administrative costs. Costs it claimed during our audit period were allowable and
properly allocated. However, MD-DDS can improve cash management. Specifically,
we found MD-DDS obtained Federal funds in excess of its expenditures. In addition,
we found MD-DDS’ general security controls were generally effective. However, MD-
DDS can improve its general security controls. For example, MD-DDS did not comply
with policies on intrusion detection and access restrictions for employees and
contractors. In addition, MD-DDS did not comply with policies concerning the Disaster
Recovery Plan (DRP) and security awareness training.

CASH MANAGEMENT

Draw Down of Federal Funds

We found the draw down of Federal funds sometimes exceeded MD-DDS’
expenditures. Federal regulations state, “A State and Federal Program Agency must
limit the amount of funds transferred to the minimum required to meet a State's actual
and immediate cash needs.” 5 MD-DDS started drawing excess Federal funds in
November 2004. In December 2004, the excess drawdowns totaled $303,600. In
June 2005, after the close of FFY 2004, the MD-DDS was still overdrawn by $99,621.

Since we identified excess drawdowns for FFY 2004 expenditures and excess
drawdowns in a prior audit, 6 we also reviewed FFY 2002 drawdowns. MD-DDS started
drawing excess Federal funds in October 2002. In December 2002, the excess
drawdowns totaled $330,520. In March 2004, after the close of FFY 2002, the MD-
DDS was still overdrawn by $52,020. The total amount of drawdowns of Federal funds
exceeding MD-DDS’ expenditures for FFYs 2002 and 2004 totaled $151,641
(see Table 2).




5
    31 C.F.R § 205.11(b).
6
  Our June 1997 Audit of Administrative Costs Claimed by the Maryland Department of Education for its
Disability Determination Services (A-13-96-25000), reported the DDS’ drawdowns exceeded FFY 1993
through 1995 expenses by $773,003.
Page 4 – Laurie Watkins


                        Table 2: Analysis of Excess Federal Funds
                                     FFYs 2002 - 2004

                              FFY 2002         FFY 2003         FFY 2004           TOTAL
       Federal Funds
                             $21,430,821 $23,914,148 $24,368,098                 $69,713,067
         Obtained
           DDS
                             $21,378,801 $23,914,148 $24,268,477                 $69,561,426
       Expenditures
      Excess Federal
                                  $52,020                $0        $99,621           $151,641
          Funds

The excess drawdown of FFY 2004 Federal funds occurred because internal controls
between MSDE and DORS were not effective. Communications between MSDE, the
component that draws down funds, and DORS, the component that records the
expenditures, was inadequate.

SSA’s portion of the single audit of the State of Maryland for the FY ended
                                                                     7
June 30, 2005 reported an issue related to the drawdown of funds. It was reported
that the MSDE did not properly reconcile the financial statements with the general
ledger balances, which resulted in incorrect receivable balances being carried forward
each year. As a result, the accuracy of the Federal cash draws may have been
impacted. The auditors recommended, “…that MSDE perform quarterly reconciliations
of amounts drawn and expended to properly determine the balance due from or
payable to the Federal Government on a federal program basis.”

We discussed the excess drawdown of Federal funds with SSA and State officials.
State officials returned the excess FFY 2002 and 2004 funds in April 2006. We verified
MSDE returned the funds.

GENERAL SECURITY CONTROLS

Access Controls

Access controls are an essential element of a general security controls environment to
ensure that only authorized individuals have access to specified facilities and/or
sensitive information. SSA's policies and procedures identify several protocols that
DDSs implement for intrusion detection and access restrictions for employees and
contractors. MD-DDS did not comply with certain SSA policies and procedures for
intrusion detection and restricting employee and contractor access. Lack of access



7
 See SSA, OIG Management Advisory Report: Single Audit of the State of Maryland for the Fiscal Year
Ended June 30, 2005 (A-77-07-00002), October 27, 2006.
Page 5 – Laurie Watkins


controls increases the risk of unauthorized access and loss of sensitive information and
equipment. We discussed the details of these conditions with MD-DDS, MSDE, and
DORS management.

For example, we found contractor employees provided cleaning services at the
MD-DDS office during nonwork hours, and sensitive documents were not secured
overnight. SSA policy requires that the office be cleaned during work hours. If daytime
cleaning is not possible, the DDS should take extra care to ensure sensitive documents
                                                                 8
(for example, medical reports and folders) are secured overnight. Unsecured sensitive
documents increase the risk of loss of sensitive information.

We discussed this issue with MD-DDS officials, who stated offices were cleaned during
nonwork hours to prevent cleaning staff from interrupting MD-DDS employees during
work hours. Officials explained this was done as described in the lease agreement.
Further, officials informed us MD-DDS did not practice the clean desk policy, as
                         9
required by SSA policy. Although officials indicated the contractor employees were
bonded, we do not believe this is an adequate management control. We believe
MD-DDS officials should comply with SSA policy for cleaning services.

Disaster Recovery Plan

MD-DDS did not comply with SSA’s policies for the DRP. The DRP did not identify, as
required, the local resources needed to operate in the event of a disaster. For
example, the MD-DDS plan did not identify people, equipment, computers, lines,
telephones, chairs, desks, office supplies, and facilities needed. SSA policy requires
that the DRP document local DDS data and personnel information vital to disaster
recovery. An incomplete DRP increases the risk MD-DDS may not perform critical DDS
operations after a disaster. MD-DDS officials said they would update the DRP to
identify local resources needed to operate in the event of a disaster.

Security Awareness Training

MD-DDS security awareness training did not comply with SSA’s policies. Employees
and contractors did not receive annual security awareness training, and MD-DDS did
not document training information in its Systems Security Awareness and Training Plan
(Training Plan). SSA policy requires that the Training Plan include a schedule for
annual security awareness training. Lack of security awareness training increases the
risk of unauthorized access to and loss of sensitive information and equipment.
MD-DDS officials stated the training would occur and be documented in the Training
Plan.




8
    Program Operations Manual System (POMS), DI 39566.010 B.6.e. and DI 39566.110
9
    POMS, DI 39566.010B.2. and DI 39566.110 A.2.
Page 6 – Laurie Watkins


CONCLUSION AND RECOMMENDATIONS
Generally, MD-DDS had effective internal controls over the accounting and reporting of
administrative costs. Costs it claimed during our audit period were allowable and
properly allocated. In addition, we found the MD-DDS general security controls
environment was generally effective. However, MD-DDS could improve its cash
management and some general security controls.

We recommend SSA instruct MD-DDS to:

1. Work with MSDE and DORS to improve cash management controls.

2. Comply with SSA’s policies related to intrusion detection, access restrictions for
   employees and contractor cleaning services, disaster recovery planning, and
   security awareness training.

SSA AND STATE AGENCY COMMENTS

SSA and the State agency agreed with our recommendations. The full texts of the
comments are included in Appendices C and D.




                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Social Security Administration Comments
APPENDIX D – State Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
C.F.R.     Code of Federal Regulations
CMIA       Cash Management Improvement Act of 1990
DDS        Disability Determination Services
DORS       Division of Rehabilitation Services
DRP        Disaster Recovery Plan
FFY        Federal Fiscal Year
IDS        Intrusion Detection System
MD-DDS     Maryland Disability Determination Services
MSDE       Maryland State Department of Education
POMS       Program Operations Manual System
SSA        Social Security Administration
SSA-4513   State Agency Report of Obligations for SSA Disability Programs
U.S.C.     United States Code
                                                                       Appendix B

Scope and Methodology
SCOPE

To achieve our objectives, we:
•   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
    Security Administration’s (SSA) Program Operations Manual System and other
    criteria relevant to administrative costs claimed by Maryland Disability Determination
    Services (MD-DDS) and drawdowns of SSA program funds.

•   Interviewed staff and officials from MD-DDS; Maryland State Department of
    Education (MSDE), Division of Rehabilitation Services (DORS); and SSA’s
    Philadelphia Regional Office.

•   Reviewed the State of Maryland Statewide Single Audit reports for the years ending
    June 30, 2003 and June 30, 2005.

•   Reviewed State of Maryland policies and procedures related to personnel, medical
    services, and all other nonpersonnel costs.

•   Obtained an understanding of the internal control structure to plan the audit and to
    determine the nature, timing, and extent of the tests to be performed.

•   Reconciled State of Maryland accounting records to the administrative costs
    reported by MD-DDS on the State Agency Report of Obligations for SSA Disability
    Programs (Form SSA-4513) for Federal Fiscal Years (FFY) 2003 and 2004.

•   Reviewed the administrative costs MD-DDS reported on its Forms SSA 4513 for
    FFYs 2003 and 2004.

•   Examined certain administrative expenditures (personnel, medical services, and all
    other nonpersonnel costs) incurred and claimed by MD-DDS for FFYs 2003 and
    2004 on the Forms SSA-4513.

•   Selected statistical samples of personnel, medical services, and all other
    nonpersonnel costs as described in the sampling methodology section on page B-2.

•   Examined the indirect costs claimed by MD-DDS for FFYs 2003 and 2004.

•   Discussed indirect costs with an official from the U.S. Department of Education,
    which is the cognizant agency for the State of Maryland.

•   Compared the amount of SSA funds drawn for support of program operations to the
    expenditures reported on the Forms SSA-4513 for FFYs 2002, 2003, and 2004.


                                           B-1
•   Reviewed MD-DDS’ general physical security controls at their office in Timonium,
    Maryland.

We concluded the electronic data used in our audit were sufficiently reliable to achieve
our audit objectives. We assessed the reliability of the electronic data by reconciling
them with the costs claimed on the Form SSA-4513. We also conducted detailed audit
testing on selected data elements from the electronic files.

We performed work at the MD-DDS in Timonium, Maryland, as well as DORS and
MSDE in Baltimore, Maryland. We conducted fieldwork from February through
October 2006. Our audit was conducted in accordance with generally accepted
government auditing standards.

SAMPLING METHODOLOGY
Our sampling methodology encompassed the four general areas of costs as reported
on Form SSA-4513: (1) personnel, (2) medical, (3) indirect, and (4) all other
nonpersonnel costs. We obtained data extracts from MD-DDS for FFYs 2003 and 2004
to use in statistical sampling. Additionally, we randomly selected a month from the
2-year audit period and reviewed supporting documents for all Medical Consultants
under contract to MD-DDS.

Personnel Costs
We randomly selected 1 pay period in FFY 2004 and reviewed 50 personnel
transactions for the pay period. We tested MD-DDS payroll records to ensure MD-DDS
correctly paid employees and adequately documented these payments.
For medical consultant costs, we randomly selected one pay period in FFY 2004. We
selected all medical consultants during that period and verified the medical consultants
were paid in accordance with the approved contract.

Medical Costs

We tested medical service costs by selecting 60 records from FFYs 2003 and 2004,
and reviewed the processed Medical Evidence of Record (MER) and Consultative
Examination (CE) vouchers. MER/CE records are included in one object code;
therefore, we based our selection on a $50 cut-off per transaction as outlined below.
Typically, MERs are less than $51.

                                   FFY 2003                   FFY 2004
             Transaction     Sample    Number of        Sample     Number of
               Amount         Size    Transactions       Size     Transactions
              $0 - $50         30        59,096           30         62,817
              Over $50         30        29,377           30         30,708
     Total                     60        88,473           60         93,525



                                           B-2
Indirect Costs
We determined the State Wide Indirect Cost Allocation to the parent agency was
performed using a Fixed Basis Cost Allocation Agreement approved by the cognizant
Federal agency (U.S. Department of Education). The amount allocated to each State
department and agency was based on estimated central service costs. In a subsequent
State Fiscal Year, the cognizant agency compared the actual costs for that year with
the estimated costs and adjusted the future year rate to compensate for the difference.
The Cost Allocation Agreement states that costs allocated to the State departments and
agencies under the agreement are approved for further allocation to Federal grants,
contracts, and other agreements performed at those departments and agencies. We
reviewed the State-Wide Allocation for FFYs 2003 and 2004, to verify that the State
used the approved fixed amount to allocate central service costs to the DDS.

All Other Nonpersonnel Costs
We selected a stratified random sample of 100 items (50 items from each FFY) from
the All Other Non-personnel Costs category. Before selecting the sample items, we
stratified the transactions into the following categories: (1) Occupancy, (2) Contracted
Costs, (3) Electronic Data Processing (EDP) Maintenance, (4) New EDP
Equipment/Upgrades, (5) Equipment Purchases, (6) Equipment Rental,
(7) Communications, (8) Applicant Travel, (9) Disability Determination Service Travel,
(10) Supplies, and (11) Miscellaneous. We then distributed the 50 sample items for
each year between categories based on the proportional distribution of the costs.




                                           B-3
                                                                            Appendix C

Social Security Administration Comments

January 12, 2007

Administrative Costs Claimed by the Maryland Disability Determination Services (A-13-06-
16029) - Response

Thank you for the opportunity to provide comments on the recommendations contained in the
audit of the Administrative Cost Claimed by the Maryland Disability Determination Services (MD
DDS) (A-13-06-1-6029) for Fiscal Years ending 2003 and 2004. The response shown below
incorporates the MD DDS response to the draft report.

Recommendation #1:
Work with the Maryland State Department of Education (MSDE) and the Division of
Rehabilitation Services (DORS) to improve cash management controls.

Response:
The DDS, DORS, and MSDE accounting personnel reviewed and revised existing cash
management controls to ensure the proper draw down of Federal funds. The revised
procedures require that accounting staff from the three entities meet on a quarterly basis to
reconcile federal reports to the State's financial system. This finding is resolved.

Recommendation #2:
Comply with SSA’s policies related to intrusion detection, access restrictions for employees and
contractor cleaning services, disaster recovery planning, and security awareness training.

Response:
• Intrusion Detection
   Modifications are required to several perimeter doors to comply with SSA’s policy requiring
   non-rising hinge pins. MD DDS has contacted the landlord with a proposal to correct the
   required door hinges and to redesign the entrance into the office. An estimate of $15,000
   was received for these modifications. The funding request is pending SSA's budget
   approval.
• Access Restriction for Employees
   Modifications are required to reset access to all secure areas when authorized personnel
   resign. The MD DDS has implemented new procedures to reset the Intrusion Detection
   System (IDS) key code with any future resignations of staff who have authorized access.
   This finding is resolved.
• Contractor Cleaning Services
   The DDS is implementing a clean desk policy effective January 12, 2007, that will require all
   staff to place claimant records and folders in locked drawers, cabinets, or rooms before
   leaving for the day. In addition, the DDS will investigate the possibility of amending their
   existing lease to provide daytime cleaning. This finding is resolved.
• Disaster Recovery Planning


                                               C-1
    The MD DDS has updated their Disaster Recover Plan (DRP) to identify the local resources
    required for continued operations in the event of a disaster. The revised DRP was
    submitted to and reviewed by the Center for Disability Programs. This finding is resolved.
•   Security Awareness Training
    Annual Security Awareness Training was developed for all employees and contractors of
    the MD DDS, and added to the Systems Security Awareness and Training Plan section of
    the DDS Security Plan. A copy of the program was reviewed by the SSA Regional Office
    and found to comply with SSA policies. Security Awareness Training was conducted for all
    staff during the week of November 27, 2006 and will be repeated annually.


Should you have any questions regarding this response, please contact Betty Martin
(215-597-2047) in the Philadelphia Region Center for Disability Programs.




                                             C-2
                        Appendix D

State Agency Comments
D-1
D-2
D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

   Randy Townsley, Audit Manager (410) 966-1039

Acknowledgments

In addition to those named above:

   William Alan Carr, Auditor-in-Charge

   Eugene Crist, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-13-06-16029.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
